                    Audit of Proposed Fiscal Year 2004
                             Direct Labor Rates

                                February 2004

                     Reference Number: 2004-1C-051




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         February 20, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Audit of Proposed Fiscal Year 2004 Direct Labor Rates (Audit
                             #20041C0220)


       The Defense Contract Audit Agency (DCAA) examined the contractor Civil Division’s
       proposed Forward Pricing Direct Labor Bid Rates dated October 31, 2003. The
       purpose of the examination was to determine the reasonableness of the proposed
       forward pricing direct labor rates.
       The DCAA opined that the contractor has submitted adequate cost or pricing data.
       According to the DCAA, the proposal was prepared in accordance with applicable Cost
       Accounting Standards and appropriate provisions of the Federal Acquisition Regulation.
       Therefore, the DCAA considers the proposal to be acceptable as a basis for negotiation
       of fair and reasonable forward pricing direct labor rates.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
